IN THE SUPREME COURT OF THE UNITED STATES
_______________
No. 19-968
CHIKE UZUEGBUNAM, ET AL., PETITIONERS
v.
STANLEY C. PRECZEWSKI, ET AL.
_______________

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
_______________

MOTION OF THE UNITED STATES FOR LEAVE TO
PARTICIPATE IN ORAL ARGUMENT AS AMICUS CURIAE
AND FOR DIVIDED ARGUMENT
_______________

Pursuant to Rules 28.4 and 28.7 of the Rules of this Court,
the Acting Solicitor General, on behalf of the United States,
respectfully moves for leave to participate in the oral argument
in this case as amicus curiae supporting petitioners and requests
that the United States be allowed ten minutes of argument time.
Petitioners have agreed to cede ten minutes of argument time to
the United States, and therefore consent to this motion.
This case presents the question whether a claim for nominal
damages based on past injury-in-fact is sufficient to support an
Article III case or controversy.
under

42

U.S.C.

1983

against

Petitioners filed this action
respondents,

alleging

respondents had violated their First Amendment rights.

that

Following

2
a policy change, respondents moved to dismiss the case as moot.
The court of appeals affirmed the dismissal of petitioners’ claims
as moot, finding that a standalone claim for nominal damages was
insufficient to save the case from mootness.
has

filed

a

brief

as

amicus

curiae

in

The United States

support

of

reversal,

contending that a claim for nominal damages based on past injuryin-fact satisfies Article III independent of any other claim for
relief, whether at the outset of the litigation or if other claims
become moot during the pendency of the litigation.
The United States has a substantial interest in the resolution
of the question presented. Nominal damages are a recognized remedy
under 42 U.S.C. 1983 for private individuals seeking to enforce
their constitutional rights against state and local governments,
and the United States has a significant interest in whether that
remedy

authorized

by

an

Act

of

available in these circumstances.

Congress

is

constitutionally

The United States likewise has

a substantial interest in the proper application of Article III’s
requirements for standing to sue in federal court.
The United States has previously presented oral argument as
amicus curiae in other cases involving either the contours of
constitutional tort claims under Section 1983 or the limitations
that Article III places on standing to sue in federal court.

See,

e.g., McDonough v. Smith, 139 S. Ct. 2149 (2019); Virginia House
of Delegates v. Bethune-Hill, 139 S. Ct. 1945 (2019); Frank v.

3
Gaos, 139 S. Ct. 1041 (2019) (per curiam); Manuel v. City of
Joliet, 137 S. Ct. 911 (2017); Campbell-Ewald Co. v. Gomez, 577
U.S. 153 (2016); Wittman v. Personhuballah, 136 S. Ct. 1732 (2016);
Filarsky v. Delia, 566 U.S. 377 (2012).

We therefore believe that

participation by the United States in oral argument in this case
would be of material assistance to the Court.
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General
NOVEMBER 2020

